                       U.S. SMALL BUSINESS ADMINISTRATION 

                           OFFICE OF INSPECTOR GENERAL 

                                    Washington, DC 20416 


                                                             ADVISORY MEMORANDUM
                                                                    REPORT
                                                           Issne Date: October 25, 2004
                                                           Report Number: 05-03
TO:           Darryl Hairston
              Assistant Administrator for Administration

              /S/ original signed
FROM:         Robert Seabrooks
              Assistant Inspector General for Auditing


SUBJECT:      Review ofIndirect Cost Rate of the Walsh Group, P.A.


        The OIG conducted a review of the indirect cost rate of the Walsh Group, P.A, (recipient)
for calendar year 2003 at the request of the Office of Procurement and Grants Management
(OPGM). We found that the recipient's overall indirect costs claimed were reasonable, allocable,
and allowable. The recipient had established a system to properly identify the costs of
organization-wide indirect cost activities and equitably allocate those costs to SBA and other
programs. Accordingly, we conclude that the final indirect cost rate for award year 2003 was
acceptable. We also identified two areas that need improvement or changes with respect to
recipient not obtaining prior approval for changes to the budget and whether SBA' s regulations
allow a for-profit entity to have single audits.



                                       BACKGROUND

       In accordance with the Drug Free Workplace Act of 1998 (Act), the Small Business
Administration (SBA) issued grants to eligible intermediaries for pnrpose of providing financial
and technical assistance to small businesses seeking to establish drug-free workplace program.

        The Walsh Group is a for-profit organization in its third option year as a recipient of a
grant under the Act. The recipient recently requested the OPGM to approve its final indirect cost
rate for calendar year (CY) 2003 at [FOIA ex. 4] and its proposed rate at [FOIA ex. 4] for
CY2004.
       For CY 2003, The Walsh Group submitted a proposed final indirect cost rate of [FOIA ex. 4]
        to be applied to total direct salaries (excluding fringe benefits), as shown below:

       Total Actual Indirect Expenses                              [FOIAex.4]

       Unallowable:
             Gifts                                  [FOIAex.4]
             Meals                                  [FOIAex.4]
             Personal Use of Auto                   [FOIAex.4]
                                                                   [FOIAex.4]
       Net Indirect Pool

       Direct Salaries                                             [FOIAex.4]

       Proposed Indirect Cost Rate      [FOIA ex. 4]                      [FOIAex.4]

       OPGM requested that the OIG perform an audit of the recipient indirect costs prior to
approving its final indirect cost rate for CY 2003.

                                            OBJECTIVE


        The review objective was to determine if indirect costs claimed for CY 2003 were
reasonable, allocable, and allowable in accordance with applicable cost principles. The cost
principles set forth in the Federal Acquisition Regulations (FAR) and Code of Federal
Regulation (CFR) were used as criteria in evaluating the allowability of costs claimed.



                               SCOPE AND METHODOLOGY

        Since the grant for Fiscal Year (FY) 2002 was awarded on September 17,2002 at the end
of the Federal fiscal year (September 30, 2002), grant activities conducted during the first three
quarters ofCY 2003 were funded with award year 2002 and the last quarter was with award year
2003 monies. We reviewed CY 2003 indirect costs of[FOIA ex. 4] allocated to the SBA Drug Free
program. We examined the general ledger, financial statements, and other supporting
documentation including vouchers and invoices. We tested expenditures using judgmental
sampling techniques to test individual account transactions.

       We obtained an understanding of the internal controls through inquires with appropriate
personnel, inspection of relevant documentation, and observation of the recipient's operation.

        The review was performed using the Federal contract cost principles set forth in FAR,
Part 31. Also, other requirements in the current grant were used as criteria in evaluating the
allowability of claimed costs.


                                                2
      We conducted fieldwork from September 15, 2004 to October 5, 2004, at SBA's
Headquarter in Washington, DC and the recipient's corporate office located in Bethesda, MD.



                                  SUMMARY OF RESULTS


        Overall indirect costs claimed by the recipient were reasonable, allocable, and allowable.
The recipient had established a system to properly identify the costs of organization-wide
indirect activities and equitably allocate those costs to SBA and other programs. However, we
identified that the recipient did not obtain prior approval for budgetary changes exceeding the
limitations and the need for changes in SBA regulations relating to imposing the single audit
requirement on for-profit entities.

        We noted that the recipient made revisions to the budget plan without obtaining prior
approval from OPGM. The recipient revised its budget plan for CY 2003 that resulted in
incurred Personnel Service costs exceeding the CY 2003 approved grant budget by [ForA ex. 4]
(See Exhibit A). The grant activities conducted during the first three quarters of CY 2003 were
funded with FY 2002 and FY 2003 monies. OMB Circular A-IIO, "Unifonn Administrative
Requirements for Grants and Agreements ... " states "recipients are required to request prior
approval/or budget and program plan revisions." It also states in section .25(a)o/ circular that
through the negotiation process, the grants official is responsible for reviewing the program
budget and eliminating unreimbursable costs, deflating unreasonably high cost estimates (e.g.,
costs for unreasonably high personnel salaries, and trimming any unproductive activities).
Therefore, by the recipient not obtaining prior approval, OPGM was not provided the
opportunity to determine the reasonableness of the revision of the recipient's budget plan.


RECOMMENDAnON

       We recommend that the Director of OPGM direct the recipient to reconcile and manage
the expenditures incurred for the grant for each period of the Federal award and obtain prior
approval in accordance with OMB Circular A-II 0 and SBA requirements.


Other Matter

       The grant award document directed the recipient to have a single audit perfonned even
though SBA's regulations do not appear to permit such an audit.

      The Walsh Group is a for-profit entity that paid to have a single audit performed for its
FY 2003 financial reporting activity.

        OMB Circular A-l33, "Audits o/States, Local Governments, and Non-Profit



                                                 3
Organizations," (Circular A -133). Subpart B, "Audits" required that non Federal entities that
expend $300,000 ($500,000 for fiscal years ending after December 31, 2003) or more in a year
in Federal funds shall have a single or program-specific audit conducted for that year in
accordance with the provision of this part. The Circular states that this part does not apply to for­
profit subrecipients. Additionally, SBA's regulation, 13 CFR 143.26 states ... "private for-profit
organizations are not required to have a single audit performed."

        For an earlier award funding period, the recipient was required to have a single audit
performed under U. S. Department of Human and Health Services (HHS) regulations that states
that a for-profit organization is subject to the audit requirements if, during it fiscal year, it
expended $300,000 or more under HHS awards. HHS regulations essentially incorporate the
thresholds and deadlines of Circular A-133. However, the Walsh Group expenditures under
HHS award for FY 2003 did not exceed the threshold requiring a Circular A-133 audit.


RECOMMENDAnON

        We recommend that the Director of OPGM to discontinue the practice of requiring a
single audit of the recipient or revise its regulations to pennit single audits offor-profit entities.




                                                   4
                                                                                                     Exhibit A


                                           Funding for CY 2003 

                                                  Versus 

                                        Actual Expenses for CY 2003 


        Cost Elements           Approved         Actual         Funding Amount          Percentage of Cost
                                 Budget         Expenses        Over or Under (-)         Elements Over
                                  for             for                                        Budget
                                 CY03            CY 03

  Personnel Service

  Fringe Benefits
  Travel
  Supplies
  Contractual
  Other                                                    [FOIA ex. 4]
  Total Direct Cost

  Indirect Cost

   Total Approved
      Budget




1 The approved budget for calendar year 2003 is based on 75 percent of the approved Federal budget for FY 2002
and 25 percent ofFY 2003, which include approved carryover for FY 2001 and 2002. The actual expenses for CY
2003 are based on grantee's reconciled submission.


                                                       5
